                                      Closeout for M99070037

    On July 16, 1999, an NSF Division Director' forwarded an e-mail complaint to OIG and a
    case was opened. The complainant? alleged that the subjed supplied false and misleading
    information to NSF for use in a press release.4 In part, the press release refers to an NSF
    award5 made to the subject. There are two specific assertions in the press release which the
    complainant considers "totally false."

    The first assertion is that the two active ingredients6 of the subject's product' are naturally
    occurring substances. The complainant does not dispute the accuracy of this assertion, but
    instead maintains that one of the active ingredients cannot possibly be produced in 100%
    purity, with the byproduct impurities being non-naturally occurring substances. However,
    regardless of its purity, there is no dispute that the active ingredient at issue is a naturally
    occurring substance.

    The second assemon is that the active ingredients do not pose a threat to the environment.
    The complainant is of the opinion that the subject's product is a potential threat to the
    human and animal environment. However, the subject had obtained unconditional
    registration for its product from the Environmental Protection Agency @PA) well before
    the appearance of the press release. This registration indicates that EPA has determined the
    subject's product "does not pose an unreasonable risk to human health or to the
    environment."

OIG concludes that the complainant's allegations about the press release attest to a scientific
disagreement about the composition and safety of the subject's product, rather than
misconduct in science. This inquiry is closed and no further action will be taken.




1
2
3
4      Footnotes Redacted
5
6
7




                                            Page 1 of 1
